NO. _____________
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
ALLA V. STEPANETS
Petitioner,
vs.
UNITED STATES OF AMERICA
Respondent.

CERTIFICATE OF SERVICE
I, John H. Cunha, Jr., hereby certify that I have this day, July 26, 2021,
served the following documents upon Respondent United States of America via
third-party commercial carrier for delivery within three (3) days to its counsel of
record, United States Attorney's Office for the District of Massachusetts, Joseph J.
Moakley Courthouse, 1 Courthouse Way, Suite 9200, Boston, MA 02210 and
Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Ave., N.W., Washington, D.C. 20530-0001:
• Petition for Writ of Certiorari;
• Motion to Proceed In Forma Pauperis; and
• This Certificate of Service.
I further certify that I have filed the same documents in the same manner
upon co-defendant Christopher Leary to his counsel of record, Paul V. Kelly,
JacksonLewis, 75 Park Plaza, 4th Floor, Boston, MA 02116; upon co-defendant Gene
Svirsky to his counsel of record, Christopher M. Iaquinto, Holland & Knight, 10 St.
James Avenue, 11th Floor, Boston, MA 02116, and the United States Court of

Appeals for the First Circuit, Clerk's Office, 2500 John Joseph Moakley U.S.
Courthouse, 1 Courthouse Way, Boston,
0221 .

* Counsel ofRecord

Dated: July 26, 2021

John H. Cunha Jr.*
Attorney Registration No. 223791
CUNHA & HOLCOMB, P.C.
One State Street, Suite 500
Boston, MA 02109-3507
617-523·4300
cunha@cunhaholcomb.com

